HHS/OIG-Audit--"Consolidated Report - Job Opportunities and Basic Skills Training Program State Maintenance of Effort, (A-06-92-00002)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Consolidated Report - Job Opportunities and Basic Skills Training Program
State Maintenance of Effort," (A-06-92-00002)
January 19, 1993
Complete
Text of Report is available in PDF format (1.3 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The final consolidated report provides you with the results of our audit of maintenance
of effort (MOE) provisions for the Job Opportunities and Basic Skills Training
(JOBS) program in Arkansas, Ohio and Oklahoma. Our audit disclosed that (1) the
Administration for Children and Families' current implementing instructions regarding
the treatment of child care costs when computing the Fiscal Year (FY) 1986 baseline
year conflicts with the JOBS regulations and is unfair to the States; (2) all three
states reviewed met the MOE requirement of maintaining the FY 1986 level of expenditures
for FY 1990. However, Oklahoma incorrectly computed the FY 1986 baseline costs;
(3) Oklahoma was unable to ensure that JOBS funds were not used for services otherwise
available on a nonreimbursable basis. As a result, we set aside $213,900 ($146,072
Federal share) for awarding agency adjudication; and (4) Oklahoma claimed unallowable
costs and excessive Federal financial participation (FFP) totaling $388,218 (Federal
share) for the JOBS program.